                                                               Issue Date
                                                               April 9, 2007

                                                               Audit Report Number
                                                               2007-LA-1008




TO:         Raphael Mecham, Administrator, Southwest Office of Native American
              Programs, 9EPI




FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Navajo Housing Authority Should Discontinue Its Use of Subgrantees for
         Development Projects or Implement Additional Program Controls

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Navajo Housing Authority’s (Authority) use of subgrantees for
             housing development projects after staff from HUD’s Southwest Office of Native
             American Programs notified the Office of Inspector General (OIG) of its concerns
             about apparent abuses in the use of Native American Housing and Self-
             Determination Act (NAHASDA) grant funds by a particular Authority
             subgrantee. The objective of the audit was to determine whether the Authority’s
             procedures for selecting and monitoring subgrantees were adequate to ensure
             compliance with NAHASDA program requirements.

 What We Found


             The Authority’s procedures for selecting and monitoring subgrantees did not
             ensure that NAHASDA grant funds were used in accordance with applicable
             program requirements and that performance goals were achieved. As a result of
             these weaknesses, the Authority failed to prevent recurring problems, including
             extended project delays, excessive project expenses, and misuse of NAHASDA
             grant funds by subgrantees and/or their construction contractors. The ultimate
           result of these failures was significantly fewer housing opportunities for the
           intended program beneficiaries, Navajo citizens. This occurred because the
           Authority failed to design and implement adequate controls over its processes for
           selecting subgrantees and monitoring subgrantee construction and management
           activities.

What We Recommend


           We recommend that HUD’s administrator for the Southwest Office of Native
           American Programs require the Authority to 1) consider discontinuing the use of
           subgrantees for housing development activities and establish a new strategy for
           more efficient and effective housing development or 2) implement additional
           controls to ensure that funds provided to subgrantees are used in accordance with
           NAHASDA requirements and in a manner that will ensure performance and
           management goals are achieved.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           report.


Auditee’s Response


           We provided the Authority a draft audit report on February 12, 2007, and held an
           exit conference to discuss the report on March 2, 2007. The Authority provided
           written comments on March 8, 2007. It generally agreed with the overall report
           conclusions, but did express concerns with some of OIG’s report statements. The
           complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                             TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit

      Finding 1: The Authority’s Procedures for Selecting and Monitoring          5
      Subgrantees Were Not Adequate

Scope and Methodology                                                             19

Internal Controls                                                                 20

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              21
   B. Auditee Comments and OIG’s Evaluation                                       22
   C. Schedule of Funding Provided to Failed Projects Cited in the Audit Report   31




                                             3
                       BACKGROUND AND OBJECTIVES

Under the Native American Housing Assistance and Self-Determination Act of 1996 (25 U.S.C.
[United States Code] 4101 et seq.) (NAHASDA), the U.S. Department of Housing and Urban
Development (HUD) provides grants, loan guarantees, and technical assistance to Indian tribes and
Alaskan Native villages for the development and operation of low-income housing in Indian areas.
Annual grants are made in the form of Indian Housing Block Grants that allow tribes to design,
implement, and administer their own housing programs. Indian Housing Block Grants allocated to
each tribe are determined based upon a formula calculation.

The Navajo Housing Authority (Authority) is the tribally designated housing entity for the
Navajo Nation and, thus, administers funding received by the tribe under NAHASDA. The
Authority is responsible for compliance with NAHASDA and its implementing regulations and
ensuring compliance by subgrantees. In general, subgrantees must comply with the same
statutory and regulatory requirements as Indian Housing Block Grant recipients.

The Authority has received an average of approximately $89 million in Indian Housing Block Grant
funding annually. It has used up to 50 percent of its annual NAHASDA funding for activities
administered by independent subgrantees; however, in recent years (fiscal years 2005 and 2006), the
amount used for independent subgrantee activities has been limited to approximately 25 percent of
the annual NAHASDA funding received.

According to the Indian housing plans for years 2003 through 2006, submitted to HUD through the
Authority, approximately 23,000 low-income families living on the reservation were living in
substandard housing, and 15,000 low-income families were living in overcrowded conditions.

In August 2000, the Authority created a new Grants Management Division to monitor its housing
development activities. Currently this division provides oversight of all subgrant activities for the
Authority, including funding proposal evaluations, monitoring reviews, and reviewing payment
requisitions. The Grants Management Division is also responsible for providing technical
assistance to subgrantees.

The objective of the audit was to determine whether the Authority’s procedures for selecting and
monitoring subgrantees were adequate to ensure compliance with NAHASDA program
requirements. The audit was performed after staff from HUD’s Southwest Office of Native
American Programs notified the Office of Inspector General (OIG) of its concerns about
apparent abuses in the use of Native American Housing and Self-Determination Act
(NAHASDA) grant funds by a particular Authority subgrantee.




                                                   4
                                RESULTS OF AUDIT

Finding 1: The Authority’s Procedures for Selecting and Monitoring
Subgrantees Were Not Adequate
The Authority’s procedures for selecting and monitoring subgrantees failed to ensure that
NAHASDA funds were used in accordance with program requirements and that housing
production goals were achieved. As a result, the Authority failed to prevent recurring problems,
including extended project delays, unnecessary project expenses, and misuse of NAHASDA
grant funds by subgrantees and/or their construction contractors. These failures resulted in
increased costs, inefficient housing production, and, ultimately, significantly fewer housing
opportunities for the intended program beneficiaries, Navajo citizens. In this regard, we
identified at least 14 housing projects, for which more than $53 million has already been
allocated, yet the projects were either not started or not finished, funds were misused by
subgrantees and/or their contractors, or construction or management problems threaten the long-
term viability of the housing projects. These problems were caused by the Authority’s failure to
implement adequate controls over the process for initially selecting subgrantees to ensure that
they had the capacity to effectively administer the funded activities and failure to implement
adequate controls to monitor subgrantee activities to ensure that the entities complied with
NAHASDA requirements and completed their projects as planned.




 NAHASDA Requires Effective
 Program Controls

              One of the primary objectives of NAHASDA is to assist and promote affordable
              housing activities, including the development, maintenance, and operation of
              affordable housing in safe and healthy environments for occupancy by low-income
              Indian families. To achieve this objective, NAHASDA regulations require that
              recipients have internal controls necessary to administer the activities effectively
              without fraud, waste, or mismanagement. The regulations also require that
              recipients of NAHASDA funds monitor their grants and subgrant-supported
              activities to ensure compliance with applicable federal requirements and that
              performance goals are being achieved. Office of Management and Budget Circular
              A-87 also requires that NAHASDA award recipients employ whatever form of
              organization and sound management practices that are necessary to ensure efficient
              and effective administration of the funds.




                                                5
The Authority Did Not
Implement Adequate Controls
over Its Subgrant Activities

           The Authority did not implement adequate controls over its subgrant activities as
           required. It failed to implement adequate controls over its process for selecting
           subgrantees, including ensuring that they had the capacity to effectively
           administer the construction and ongoing management of the proposed projects,
           funding was consistent based upon the housing needs for each geographical area
           within its jurisdiction, and proposed housing development costs were reasonable
           and supported. The Authority also failed to adequately monitor subgrantee
           activities to ensure that the entities complied with specific NAHASDA program
           requirements for construction activities.

The Authority Did Not Ensure
That Subgrantees Had the
Capacity to Effectively
Administer Projects

           As part of its subgrant proposal evaluation process, the Authority failed to ensure
           that its subgrantees had sufficient capacity to administer the proposed
           construction and postconstruction project management activities. For example,
           many of the Authority’s subgrantees did not have prior experience or knowledge
           related to housing development. These subgrantees did not have specific plans or
           the capacity to oversee the work of construction contractors or the capacity to
           detect and prevent potential contractor improprieties. Many of the Authority’s
           subgrantees were not familiar with NAHASDA program requirements, including
           those related to procurement, insurance and construction bonding, and necessary
           elements for soliciting and managing construction contracts.

           The Authority also did not evaluate potential subgrantees’ capacity to administer
           force account construction activities when this was proposed and did not
           adequately review potential subgrantees’ capacity or plans to ensure that
           completed housing units would be properly managed after construction
           completion. For example, the Authority did not evaluate subgrantees’ plans for
           ensuring that completed housing units would be covered by insurance or that the
           intended housing management agent or residents were capable of ensuring that
           the units would be adequately maintained. Since NAHASDA-funded houses in
           some cases were transferred to very low-income, elderly, or disabled individuals,
           they may not be able to afford insurance or properly care for the units, and the
           Authority did not ensure that the subgrantee (or the Authority itself) had plans to
           address these concerns. For rental projects, the Authority did not ensure that
           subgrantees had appropriate plans for establishing reserve accounts to allow for
           repair or replacement of high-cost items. Without appropriate plans in place to




                                            6
                 ensure that housing units are properly insured and maintained, the useful life of
                 the housing could be significantly reduced. Further, problems arising from a lack
                 of appropriate planning for protection of completed units could affect future
                 requests for NAHASDA funding for repair or replacement costs, and additional
                 management funding for subgrantee units would reduce the availability of funding
                 for new units. The Authority’s failure to ensure proper planning for completed
                 housing units could reduce the number of families assisted and significantly limit
                 the long-term effectiveness of the Authority’s housing program.

                 Based upon the Authority’s most recently prepared summary of subgrantee
                 monitoring review findings, dated May 31, 2005, 11 of 48 (23 percent)
                 subgrantees reviewed by the Authority did not have the capacity to properly
                 administer the grant funds awarded. 1 Further, Authority Grants Management
                 Division quality inspectors responsible for monitoring subgrantees and providing
                 technical support stated that the use of inexperienced subgrantees has consistently
                 caused significant construction delays and in some cases, project failures and
                 misuse of grant funds by contractors. The Office of Inspector General’s (OIG)
                 site visits to three Authority subgrantee projects (a nonstatistical sample) found
                 that the subgrantees each lacked some basic qualifications for administering
                 construction projects, including familiarity with NAHASDA program
                 requirements, adequate accounting systems and qualified accounting or
                 bookkeeping personnel, and capacity to oversee construction contractors and/or
                 project managers.

    Subgrantees Relied upon Outside
    Consultants and/or Contractors
    without Adequate Oversight


                 In several cases involving inexperienced subgrantees, nearly all aspects of the
                 projects’ planning and construction were controlled by outside developers or
                 consultants with little or no oversight by the subgrantees themselves. These
                 arrangements lacked essential controls to ensure that the interests of the project
                 and the NAHASDA program were protected, greatly increasing the risk that funds
                 would be used inefficiently or inappropriately. In some cases, the contractors
                 prepared the funding proposals on behalf of the subgrantees, acted as the general
                 contractor, and even handled aspects of the projects’ financing including
                 preparation of draw requests submitted to the Authority. In some cases, it also
                 appears that the contractors did not compete to obtain the contracts for
                 construction of the projects.




1
  As of January, 26, 2007, the Authority did not have an updated report available for our review, summarizing the
results of its findings for monitoring reviews performed after May 11, 2005.


                                                         7
           Authority managers acknowledged that previous efforts to evaluate the capacity
           of potential subgrantees were inadequate and stated that they are implementing
           new procedures to address this problem. However, the potential effectiveness of
           these proposed new procedures is questionable. For example, the Authority does
           not require that subgrantees have any prior experience in construction activities,
           even for proposed multiunit development projects. Also, the revised procedures
           do not adequately consider several factors that have significantly impacted
           previously funded projects, including

           •   The subgrantees’ plans for working with a predetermined consultant or
               contractor,
           •   The subgrantees’ plans to oversee consultants and/or contractors,
           •   The subgrantees’ familiarity with their written policies and procedures and
               whether they have been implemented,
           •   The subgrantees’ and managements’ references and performance on similar
               projects (not funded by the Authority),
           •   The subgrantees’ capacity to manage completed units,
           •   The subgrantees’ plans for ensuring that completed projects are insured and
               properly maintained, and
           •   The adequacy of the subgrantees’ primary staff qualifications.


The Authority Did Not Properly
Evaluate Housing Needs or
Proposed Development Costs


           The Authority’s subgrantee selection process did not include a required evaluation
           of the housing needs for each geographical area within its jurisdiction and did not
           include an evaluation of the reasonableness of subgrantees’ proposed housing
           development costs. The Authority has not performed a recent analysis of housing
           development costs to assist in determining whether subgrantee-proposed
           development costs were reasonable or to assist in establishing development cost
           guidelines. Further, the Authority does not require that potential subgrantees
           submit project plans or detailed budgets to ensure that projects are not overfunded
           or underfunded.


The Authority Did Not
Adequately Monitor Subgrantee
Activities

           The Authority did not establish and implement adequate controls to ensure that
           subgrantees complied with NAHASDA requirements. Such controls are
           particularly important since, as discussed above, many of the subgrantees selected



                                            8
by the Authority did not have adequate capacity to administer their projects or
were under the control of outside construction contractors or consultants. For
example,

       •   The Authority did not have comprehensive written procedures and
           guidelines for subgrantees and its own staff to allow for consistent and
           efficient application of policies. The subgrantees we visited stated that
           they looked to the Authority for guidance in administering their
           projects and complying with NAHASDA program requirements yet
           often received inadequate or inconsistent information. As discussed
           above, the Authority did not ensure that subgrantees were familiar
           with Authority or NAHASDA requirements before receiving funding
           for the projects. Authority staff acknowledged that the lack of
           adequate comprehensive written procedures and guidelines likely
           contributed to problems encountered on some projects. Authority staff
           responsible for overseeing ongoing subgrantee projects also indicated
           that their monitoring duties were often undermined when upper
           management at the Authority overrode their determinations regarding
           enforcement activities and they did not have a set of fixed policies
           upon which they could object and pursue compliance with reasonable
           standards. The Authority’s Grants Management Division initiated an
           effort to draft written guidelines related to project planning and
           development for use by Authority staff and subgrantees; however, the
           guidelines were not completed.

       •   The Authority did not require subgrantees to submit copies of
           proposed contracts with general contractors and/or construction
           managers for review and failed to ensure that subgrantees complied
           with procurement requirements in obtaining such contracts. We
           reviewed four subgrantee contracts for construction services
           (nonstatistical sample). One of the four contracts was a cost-plus type
           contract, which is prohibited under 24 CFR [Code of Federal
           Regulations] 85.36(f)(4). Two of the four contracts assigned the entire
           subgrant amount for use by the contractor yet did not include detailed
           requirements for the projects’ design and did not specify the amount of
           allowable contractor profit. Since project costs could vary
           significantly based upon variations in the scope of work, without this
           detail, the Authority has no assurance that the projected costs (contract
           amounts) are reasonable. Authority staff indicated that projects were
           often funded for both design and construction phases without any
           detailed plans for the projects’ design or a detailed budget.

           Authority staff indicated that in some cases, the subgrantees had no
           idea of the actual costs for the project until the third or fourth year
           after receiving initial funding. These types of “open-ended” contracts




                                 9
    do not allow for price competition based upon fixed plans and
    specifications, and since the subgrantees in many cases have only
    limited experience or knowledge related to construction activities,
    there is no effective control mechanism to ensure that the final design
    and specifications are appropriate given the amount of funds allocated
    for the project. These types of arrangements, which eliminate price
    competition and rely upon the ability of inexperienced parties to
    determine the reasonableness of construction costs, can result in
    significantly increased risk that costs will exceed the value of the
    products and services provided or that the funding allocated will not be
    sufficient to complete the project.

    The Authority’s monitoring reviews found that 15 of 48 subgrantees
    reviewed as of May 31, 2005, failed to comply with federal
    procurement standards. Based upon discussions with Authority staff,
    in several cases the Authority assumed the risk of subgrantee budget
    shortfalls and incurred additional expenses because subgrantee
    contracts with construction managers were “open ended” and did not
    require accountability for project costs.

•   The Authority did not verify the availability of subgrantees’ planned
    match funding. In several cases, subgrantee construction projects were
    shut down and incurred significant associated costs after the
    subgrantees’ planned match funding failed to materialize. In several
    other cases, the Authority provided additional NAHASDA funding to
    avoid failure of the projects.

•   The Authority did not implement adequate controls over subgrantee
    payment requisitions. It did not consistently require subgrantees to use
    a detailed schedule of values to monitor project budgets and maintain
    control over contractor payment requisitions. It did not monitor
    requisitions to ensure that contractors did not shift amounts between
    budgeted cost categories without approved change orders. It also did
    not consistently require lien waivers from the contractors and
    subcontractors before paying draw requests. Partial lien waivers
    should be checked against the schedule of values to ensure that
    subcontractors have been paid from previous requisitions and that the
    work currently claimed as completed is supported by the
    subcontractor’s lien waivers.

•   Although Authority staff performed site visits to verify general
    construction progress before approving construction draw requests,
    they were not certified inspectors and did not inspect construction
    work to thoroughly evaluate construction quality, compliance with




                         10
    building codes, or compliance with architectural plans and
    specifications. The Authority did not require that subgrantee projects
    be independently inspected during the construction process.

    This is a particularly important lapse in controls since no building code
    inspections were performed by a governing Authority on the Navajo
    reservation. Accordingly, significant construction flaws could go
    unnoticed and could materially affect the useful life of the housing.

•   The Authority did not have adequate procedures to ensure that
    appropriate construction contractor bonds or deposits were in place. It
    did not require subgrantees to submit evidence that bonding or deposit
    requirements were met. In several cases, bonds were not obtained and
    contractors hired by subgrantees failed to complete their projects and
    failed to pay subcontractors after NAHASDA funds were drawn down
    for this purpose. As a result, funds were not available to complete the
    projects, and the projects were left with significant debt to unpaid
    vendors.

•   The Authority did not implement controls to ensure that subgrantees
    obtained required insurance to cover potential damage to the projects
    during construction. It also did not ensure that subgrantees had
    appropriate plans for ensuring that the completed projects were insured
    as required. Some NAHASDA-funded projects were not insured and
    incurred significant damages. As a result, additional NAHASDA
    funding was required to repair the damage, or the projects had to be
    scaled back to cover the repair costs.

•   The Authority did not implement adequate procedures to monitor
    subgrantees’ program income (income received from operation of
    NAHASDA-funded projects). NAHASDA regulations require that
    such income derived from NAHASDA-funded projects be used for
    housing-related activities. According to Authority staff, both the
    Authority and its subgrantees had little understanding of program
    income and how it should be identified and treated. Accordingly, in
    many instances there was little, if any, accountability for income
    received from project operations.

    The Authority did not have procedures to ensure that findings
    identified during its subgrantee monitoring reviews were resolved in a
    timely manner. It required that subgrantees submit a corrective action
    plan to address open audit findings, and its policy was to perform a
    followup visit to verify completion of the corrective actions within 120
    days. We reviewed the Authority’s actions taken to resolve open
    findings associated with 23 monitoring reviews and found that the




                         11
                                  Authority did not make timely followup visits to ensure that the
                                 findings were corrected in eight of the cases (35 percent). In five of
                                 the cases (22 percent), the Authority did not perform any followup
                                 visit to ensure that the findings were resolved. In several cases,
                                 findings remained unresolved for one or more years without adequate
                                 followup action by the Authority to resolve the outstanding issues.

    Inadequate Controls over the
    Selection and Monitoring of
    Subgrantees Impacted Results

                    The Authority’s failure to ensure that subgrantees had sufficient capacity to
                    administer the construction and management of their projects and the failure to
                    adequately monitor subgrantee activities resulted in unnecessary project expenses,
                    significant delays, and in some cases, misuse of NAHASDA grants funds by
                    subgrantees and/or their construction contractors. These problems dramatically
                    reduced the number of potential housing opportunities for Navajo citizens. For
                    example 2 ,

                                 One Authority subgrantee received approximately $12 million in
                                 NAHASDA funding for development of 90 housing units but was
                                 apparently under the control of a developer/consultant with virtually
                                 no oversight by the subgrantee. The project was initially funded in
                                 2001, and nearly all of the grant funding has been drawn down. The
                                 subgrantee declared bankruptcy, and the project was left with
                                 approximately $800,000 in unfinished construction work and
                                 approximately $2 million in unpaid vendor claims. While the
                                 construction of homes is nearly complete, the site remains vacant, and
                                 there is no existing potable water source or access to nearby roads
                                 because the subgrantee and its developer apparently did not plan and
                                 coordinate with the appropriate authorities to ensure the availability of
                                 these services. Another Authority subgrantee received $14.5 million
                                 in NAHASDA funding for construction of 121 homes and allowed the
                                 same developer to administer the project without adequate oversight.
                                 The project was shut down for approximately one year after the
                                 subgrantee and its contractor failed to follow NAHASDA
                                 requirements and started construction before obtaining the necessary
                                 environmental clearances. As a result, the project incurred
                                 approximately $550,000 in unnecessary additional costs, and the
                                 planned number of units was reduced by 30. It also appears that the
                                 project will require at least $2 million in additional funds for
                                 completion, even considering the reduced number of units. In this



2
    See Appendix C for the respective funding amounts associated with each of the example projects listed.


                                                          12
    case, the subgrantee did not have the capacity to properly oversee the
    developer and failed to ensure that insurance and bonds were in place.
    It also appears that this project may have significant construction
    quality issues, including the use of inferior building materials, poor
    workmanship, and building code violations (Projects 1 and 2).

•   One Authority subgrantee received a total of $1.9 million in 2003 and
    2004 for the initial construction phases related to the demolition and
    reconstruction of 60 housing units. The subgrantee apparently did not
    have adequate capacity to administer the project and oversee its
    construction contractor. Work on the project halted after the Authority
    suspended payments due to apparent questionable expenses,
    inadequate bookkeeping, concerns over unpaid vendor invoices, and
    commingling of funds. The involved families were evicted from their
    homes when construction work started, and there was no plan for their
    relocation or the hardship costs they faced. The project remains
    incomplete, and some of the families are apparently homeless as a
    result of the project’s failure (Project 3).

•   One Authority subgrantee received approximately $1.7 million in
    NAHASDA funds and constructed a nursing home facility that was
    substantially completed in November 2005. However, the facility
    remains unoccupied because the subgrantee did not have firm
    commitments for obtaining the funding needed to operate the nursing
    home. As of February 2007, the center remains unoccupied
    (indefinitely) as the subgrantee continues its efforts to resolve issues
    associated with funding for its operations. This subgrantee also
    received $1.3 million for construction of 20 housing units for elderly
    individuals. However, after more than two years, the subgrantee has
    failed to finalize the planning process for these units. The subgrantee
    hired a consultant to manage the project, but the subgrantee was not
    familiar with NAHASDA requirements, did not have any prior
    construction experience, and was not capable of overseeing the
    consultant. Since the consultant was not retained under a fixed-price
    contract, she continued to receive compensation from NAHASDA
    funds even as the project sat idle (Project 4).

•   One Authority subgrantee received approximately $3.4 million in
    NAHASDA funds to construct a shelter for women and children.
    While almost all of these funds have already been expended, the
    shelter is only approximately 60 percent completed, and work on the
    project has halted. Authority staff estimate that the project will require
    an additional $1.5 million to complete. In this case, it appears that the
    subgrantee did not have any prior experience in construction and did




                          13
    not have the capacity to oversee a construction project of this size.
    The subgrantee entered into an open-ended, cost-plus contract for
    construction and failed to obtain planned match funding (Project 5).

•   One Authority subgrantee received $ 2.9 million in NAHASDA funds
    to construct a shelter. The project was started in 2000 with a projected
    completion date in 2002. However, nearly all of the funds have been
    expended, and the project remains incomplete. The subgrantee
    apparently did not properly budget for items necessary to complete the
    project, failed to obtain planned match funding, and encountered
    significant problems with its hired contractors. The subgrantee did not
    have the capacity to properly administer the project, and the facility
    currently sits vacant. Recently, the subgrantee failed to pay the utility
    bills, and the building suffered significant water damage after the fire
    sprinkler system pipes froze and broke (Project 6).

•   One Authority subgrantee received $516,800 in NAHASDA funding
    to plan and develop 23 housing units. Although the portion of these
    NAHASDA funds allocated for the planning phase were expended, the
    subgrantee could not proceed with the project, and it never
    materialized. The subgrantee apparently did not have the capacity to
    administer the project and oversee its hired consultant. The subgrantee
    also entered into a prohibited preaward contract with its consultant
    (Project 7).

•   One Authority subgrantee received approximately $1.5 million in
    NAHASDA funding for construction of a group home. The project
    was only partially built, and construction stopped because the
    subgrantee failed to properly budget construction costs and obtain its
    planned match funding (Project 8).

•   One Authority subgrantee received approximately $232,572 in
    NAHASDA funding to plan the renovation of 82 housing units. The
    subgrantee had no prior experience in construction activities and hired
    a consultant without following proper procurement procedures. It
    allowed the consultant to take control of the project without providing
    proper oversight of the consultant’s activities. All of the funds were
    spent, yet the planning was not completed, and the renovation project
    was never started (Project 9).

•   One Authority subgrantee received approximately $4.4 million for the
    planning and development of 36 housing units for staff members at a
    school. The subgrantee did not have experience in construction
    activities and did not have the capacity to properly oversee its hired
    contractor. Its executive director apparently did not have time to



                         14
    oversee both the operation of the school and the construction project.
    The project experienced significant delays, issues with poor
    construction quality, and a failure to properly budget for construction
    costs. The housing units should have been completed in early 2004
    according to Authority staff estimates; however, the project was left
    incomplete, and the school for which the staff housing units were
    intended has since closed down. This same subgrantee was also
    awarded $2.1 million for planning and constructing two elderly group
    homes and $310,000 for planning activities associated with 30
    additional housing units. However, work on this project stopped, and
    plans to complete the elderly homes were cancelled after the school
    run by the subgrantee closed (Project 10).

•   One Authority subgrantee received approximately $3.3 million in
    NAHASDA funding for development and construction of 18 housing
    units for Navajo citizens who were displaced from their previous
    homes. The construction is nearly complete; however, the subgrantee
    was unable to finish the project, and it appears that a subgrantee
    official misappropriated approximately $170,000 of the funds. Some
    of the families have moved into the partially completed units and are
    living without power or water services. The remaining incomplete
    homes sit vacant (Project 11).

•   One Authority subgrantee received $264,800 in NAHASDA funding
    to conduct planning activities for development of a group home.
    Nearly all of these funds were expended, yet the project never
    materialized. The subgrantee did not have the capacity to properly
    administer the project, and it appears that some of the funds were
    misappropriated by the subgrantee (Project 12).

•   One Authority subgrantee received approximately $1 million in
    NAHASDA funding for the planning and development of six housing
    units. The subgrantee attempted to construct the homes using its own
    force account labor but did not have the capacity to administer the
    project. It also attempted to construct the units without using any
    formal plans and specifications, and the resulting work was
    substandard and not in compliance with building codes. The project
    ran out of construction funds before completion, and the subgrantee
    did not cooperate with the Authority’s attempts to perform a
    monitoring review. In this case, subgrantee officials allegedly
    misappropriated a portion of the grant funds to pay for personal
    expenses (Project 13).




                         15
                   •   One Authority subgrantee received approximately $1.9 million for the
                       planning and development of single-family housing units. This
                       subgrantee was not familiar with NAHASDA requirements, did not
                       have an adequate plan for its force account construction activities,
                       failed to have its construction work inspected, and did not have the
                       capacity to oversee its own finances. The project had to be
                       significantly scaled back after the subgrantee failed to obtain planned
                       match funding. During a visit to one of the housing units, we found
                       potentially significant construction quality issues that could
                       significantly limit the useful life of the housing. Further, it appears
                       that at least some and possibly all of the elderly individuals who were
                       provided housing cannot afford property insurance or ongoing
                       maintenance of the units. Neither the subgrantee nor the Authority
                       have any plans to address this problem (Project 14).

            We estimate that funds associated with the projects discussed above, which
            experienced significant failures associated with mismanagement or misuse of
            program funds as a result of inadequate subgrantee administrative capacity and/or
            inadequate monitoring by the Authority, exceeded $53 million. These projects
            and others that experienced similar problems also placed a significant and
            continuing burden on Authority staff, which limited their ability to provide
            assistance and oversight for other housing development projects. The continuing
            burden associated with these projects also has limited the Authority staff’s ability
            to make needed improvements to their oversight and monitoring operations.

Subgrantee Failures Reduced
Potential Housing Opportunities


            The Authority’s rate of housing production has decreased dramatically since the
            NAHASDA program was implemented and the Authority began relying on
            subgrantees for a portion of its housing development. Although several factors such
            as increasing construction costs have likely affected the Authority’s rate of housing
            production, its reliance on subgrantees to produce much of its new housing,
            combined with a failure to implement adequate controls over the selection and
            monitoring of the subgrantees, has been a significant obstacle to achieving the
            programs goal of producing affordable housing opportunities.




                                             16
Conclusion


             The Authority’s procedures for selecting and monitoring subgrantees did not
             ensure that NAHASDA grant funds were used in accordance with applicable
             federal requirements and that performance goals were achieved. As a result,
             many subgrantee projects were not completed in a timely manner, required
             additional funding or a reduction in the number of planned housing units, or were
             never completed. Based upon specific projects reviewed during the audit, we
             estimate that funds that could have been put to better use associated with
             subgrantee failures tied to these control weaknesses totaled approximately $53
             million. The Authority acknowledged that it has had a number of problems with
             its subgrantees and has taken some steps to strengthen its controls; however,
             substantial additional improvements are needed. The Authority should 1)
             consider discontinuing the use of subgrantees for housing development activities
             and establish a new strategy for more efficient and effective housing development
             or 2) implement significant additional controls to ensure that funds are used in
             accordance with NAHASDA requirements and in a manner that will ensure
             performance goals are achieved in a cost-effective manner.

Recommendations

             We recommend that the administrator for the Southwest Office of Native
             American Programs require the Authority to

             1A. Consider discontinuing the use of subgrantees for construction-related
             projects and establish a new strategy for more efficient and effective housing
             development.

             If the Authority continues its use of subgrantees for construction activities,

             1B. Implement procedures to ensure that funds are used in accordance with
             NAHASDA requirements and in a manner that will ensure performance goals are
             achieved in a cost-effective manner.

             1C. Analyze housing conditions to better target resources to geographical areas
             of need. The Indian housing plan should include a description of the manner in
             which the geographical distribution of assistance is consistent with the
             geographical needs and needs for various categories of housing assistance.




                                              17
1D. Implement a coordinated approach to managing housing provider activities,
including the development of standard operating guidelines and procedures for
use by Authority staff and subgrantees.

1E. Provide precontract award oversight of subgrantee procurement procedures
and consider requiring and enforcing the use of standardized fixed-price
construction contracts. Require procurement be performed for construction
services based upon specific plans and specifications rather than allowing
consultants or general contractors to assume the entire grant amount without the
controls provided by specific project requirements.

1F. Establish and implement procedures for analyzing proposed subgrantee
planning and development costs to ensure that projects are not overfunded or
underfunded. Before awarding subgrant funds, determine the appropriateness of
subgrant amounts based upon detailed, supportable cost estimates.

1G. Require the use of certified inspectors to ensure that projects are completed
in accordance with building codes and with plans and specifications.

1H. Require and enforce, through preconstruction verification, construction
bonding or deposit and insurance requirements.

1I. Perform more effective reviews of subgrantee administrative capacity,
including consideration of 1) subgrantee management and staff’s understanding of
NAHASDA requirements and the subgrantee’s written policies and procedures, 2)
the implementation of written policies and procedures, 3) the capacity of primary
staffing involved in the administration of the construction and management of the
project, 4) the subgrantee’s plans for use of predetermined consultants or general
contractors, 5) the verification of references for prior projects or activities, 6) the
subgrantee’s capacity to manage the units once completed, and 7) the
subgrantee’s plans for overseeing its general contractor or consultant. Provide
funding only to subgrantees that have a demonstrated capacity to carry out the
planned activities effectively and in accordance with NAHASDA requirements.

1J. Implement more effective controls over subgrantee payment requisitions such
as requiring detailed schedules of values, independent inspection reports, and lien
waivers.

1K. Implement procedures to ensure that monitoring review findings are
consistently tracked and resolved within established timeframes.

1L. Implement consistent procedures to ensure that subgrantees properly account
for and use program income and that this matter is fully addressed and resolved
during the grant award process.




                                  18
              SCOPE AND METHODOLOGY

Our audit related to the Authority generally covered the period from 2003 through 2006;
however, some of the activities reviewed occurred before these dates. During this period, the
Authority received approximately $272 million in NAHASDA funding.

The objective of the audit was to determine whether the Authority’s procedures for selecting and
monitoring subgrantees were adequate to ensure compliance with NAHASDA requirements. To
acomplish our objective, we

       •   Interviewed Authority managers and staff responsible for administering the
           Authority’s subgrant activities.
       •   Performed limited reviews at three Authority subgrantees.
       •   Obtained and reviewed selected subgrantee payment requisitions.
       •   Obtained and reviewed selected subgrantee construction contracts.
       •   Obtained and reviewed information documenting the Authority’s followup actions
           related to subgrantee monitoring reviews.
       •   Interviewed program staff from HUD’s Southwest Office of Native American
           Programs.

We performed our fieldwork from June 2006 through January 2007. We performed our audit in
accordance with generally accepted government auditing standards.




                                               19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       The Authority’s policies and procedures for selecting subgrantees.
              •       The Authority’s controls for monitoring subgrantee construction and project
                      management activities.

              We assessed the relevant controls identified above.


 Significant Weaknesses


              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

              Based on our review, we believe the following item is a significant weakness:

              •       The Authority’s controls for selecting and monitoring subgrantees were
                      not adequate (finding 1).




                                               20
                                        APPENDIXES

Appendix A

                     SCHEDULE OF QUESTIONED COSTS
                    AND FUNDS TO BE PUT TO BETTER USE

                           Recommendation    Funds to be put to better use
                           number
                                 1A                   $53,419,143 3


          Recommendations that funds be put to better use are estimates of amounts that could be
          used more efficiently if an OIG recommendation is implemented. This includes
          reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
          incurred by implementing recommended improvements, avoidance of unnecessary
          expenditures noted in preaward reviews, and any other savings which are specifically
          identified. This includes costs associated with specific projects identified during the
          audit that experienced significant failures as a result of the finding conditions. As
          discussed in the finding, these projects failed to meet their planned objectives and
          decreased the number of potential housing opportunities created through the NAHASDA
          program. If our recommendations are implemented, we believe the Authority’s future
          use of NAHASDA funds for similar projects will avoid such problems and the
          Authority’s development activities will be more effective in meeting their planned
          objectives and generating housing opportunities. Funds put to better use related to
          finding 1 apply to all of the recommendations but, for recording purposes, we have
          attached all of the funds to recommendation 1A.




3
    Also see Appendix C.


                                                 21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         22
Comment 2




Comment 3




            23
Comment 4




            24
Comment 5




Comment 6




            25
26
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority felt that OIG did not provide specific statute or regulatory citings
            to support our findings of noncompliance set out in the report. However, the
            finding does set out the applicable statutory and regulatory requirements that form
            the very basic management prerequisites of not only NAHASDA, but also most
            other federal grant programs. That is, 24 CFR 1000.6 of the NAHASDA
            regulations requires that recipients “must have the administrative capacity to
            undertake the affordable housing activities proposed, including the systems of
            internal control necessary to administer these activities effectively without fraud,
            waste, or mismanagement.” Further, Office of Management and Budget Circular
            A-87, Cost Principles for State, Local, and Indian Tribal Governments (adherence
            with which is required by 24 CFR 1000.26), Attachment A, paragraph A.2.a.
            states that application of cost principles is based on the fundamental premises
            that, “(1) Governmental units are responsible for the efficient and effective
            administration of Federal awards through the application of sound management
            practices.” Essentially, the report states that the Authority did not have policies
            and procedures in place to assure that these very basic management requirements
            were met, especially as it related to controls over subgrantee activities.

Comment 2   The Authority’s response did not object to the finding conclusion, yet states that
            the cause of this problem may have been partially attributable to a purported
            failure by HUD’s Southwest Office of Native American Programs to provide
            adequate training or technical assistance to the Authority’s subgrantees.

            The audit report findings involve control weaknesses that exist within the
            Authority’s own housing development program operations. The Authority should
            request assistance from HUD as needed, however, the Authority, as the tribally
            designated housing entity, is ultimately responsible for administering its housing
            program and ensuring its activities comply with NAHASDA program
            requirements.

Comment 3   The Authority’s response questions the audit report conclusion that the Authority
            should review subgrantees plans for ensuring that completed units will be
            properly maintained and that required insurance is obtained.

            In regard to ensuring subgrantees have plans or capacity to ensure units will be
            properly maintained, the Authority’s housing development program should focus
            on activities that provide lasting solutions to address the severe housing shortage
            on the Navajo reservation and should direct program resources to programs and
            processes that have basic controls to protect the limited resources available to the
            program. Accordingly, it is only reasonable that consideration be given to the
            subgrantees’ plans for ensuring that appropriate means are in place to ensure the
            assisted units are maintained. The audit report does not suggest that the Authority
            or its subgrantees should subsidize the maintenance activities on all units assisted,




                                             27
            but rather that the Authority should ensure the subgrantees have adequate plans or
            capacity to provide for property management on rental units or plans to consider
            the ability of proposed home occupants to maintain the homes using their own
            resources. For example, subgrantees should not construct a three bedroom home
            for an elderly, disabled person that lives alone, without consideration given to the
            homeowner’s plans or ability to provide for maintenance of the home. Likewise,
            the Authority should not fund a multi-million dollar rental housing project
            without adequate consideration given to the plans and capacity of the subgrantee
            to properly manage and maintain the project. It is not prudent to invest the
            Navajo’s limited NAHASDA grant resources in projects without taking such
            appropriate steps to ensure adequate planning has been performed to ensure the
            housing will remain safe and sanitary and provide a long term solution for the
            involved Navajo citizens. In this regard, Section 202 (e) of the NAHASDA
            statute states “Each recipient shall develop policies governing the management
            and maintenance of housing assisted with grant amounts under this Act”.

            In regard to NAHASDA insurance requirements, please note, Section 202 (c) of
            the NAHASDA statute states “Each recipient shall maintain adequate insurance
            coverage for housing units that are owned or operated or assisted with grant
            amounts provided under this Act”. Also, for developments under construction,
            the implementing regulations for NAHASDA at 24 CFR 1000.136 (c) require that
            that NAHASDA recipients “shall require contractors and subcontractors to either
            provide insurance covering their activities or negotiate adequate indemnification
            coverage to be provided by the recipient in the contract”.

            In accordance with 24 CFR 1000.136 (b), insurance is not required on units
            assisted by grants to families for privately owned housing if there is no risk of
            loss or exposure to the recipient or if the amount of assistance is less than $5,000
            and repayment of all or part of the assistance is not a part of the assistance
            agreement. However, NAHASDA does recognize the risk that can result from a
            lack of insurance and accordingly 24 CFR 1000.140 of the NAHASDA
            regulations allows for recipients to “purchase insurance for privately owned
            housing to protect NAHASDA grant amounts spent on that housing.”

Comment 4   The Authority’s response claims it is not required to conduct an evaluation of
            housing needs for each geographical area within its jurisdiction. We disagree
            with the Authority’s comment since this is a very specific requirement of the
            NAHASDA program. Section 102(c)(2) of the NAHASDA statute requires that
            the following two distinct items be submitted to HUD as part of the one-year
            housing plan:

                   (A) “a description of the estimated housing needs and the need for
                   assistance for the low income Indian families in the jurisdiction, including
                   a description of the manner in which the geographical distribution of
                   assistance is consistent with the geographical needs and needs for various




                                             28
                   categories of housing assistance; and (B) a description of the estimated
                   housing needs for all Indian families in the jurisdiction.”

            It should also be noted that at the March 2, 2007 exit conference, officials of
            HUD’s Southwest Office of Native American Programs confirmed that, although
            the Authority may not have provided an evaluation of housing needs by
            geographic area in the past, such an evaluation is required by the NAHASDA
            regulations and should be developed and submitted to HUD as part of its annual
            housing plan.

Comment 5   The Authority’s response states that it believes subgrantees’ cost estimates were
            reasonable when they were submitted and that no consideration beyond HUD’s
            established total development costs is necessary. Further, the Authority felt that
            funding shortfalls were caused by rising costs, not the failure to determine
            accurate cost estimates at the time of project funding, and that because of these
            rising costs they have requested adjustments to HUD’s prescribed total
            development costs for its jurisdiction.

            This comment demonstrates the precise problem with the Authority’s
            methodology for determining grant amounts for proposed subgrantee construction
            projects. It indicates that the Authority was willing to fund subgrantees for the
            maximum amount permissible under the NAHASDA program, regardless of the
            projects’ design or actual budget requirements which could vary significantly
            from project to project. This methodology assumes that all proposed projects (by
            type) are identical in their design and potential cost requirements, yet this is not
            true. As noted in the report, Authority staff indicated that in some cases
            subgrantees did not have any idea what their actual costs would be until three to
            four years after they received funding from the Authority and, in some cases,
            subgrantees failed to properly budget for construction costs and were forced to
            halt construction and/or seek additional funding from the Authority. Without
            consideration given to actual cost requirements based upon supportable project
            cost estimates and design requirements, the potential for overfunding or funding
            shortages will be increased, particularly since many of the Authority’s
            subgrantees lacked construction industry knowledge and experience.
            Accordingly, although the subgrantees may have faced increased costs during
            their drawn out development periods, these increased costs simply exacerbated
            the already serious problem of unsupported and in reality completely unreliable
            cost estimates used to determine initial project funding.

            Furthermore, as noted in the report, providing fixed (and potentially excessive)
            amounts to subgrantees without regard to specific project requirements, increases
            the potential for abuse by contractors or consultants who may seek to
            inappropriately exploit the existence of available funding surpluses or to reduce
            the scope or quality of the projects to maximize their own potential for profit. By
            allowing subgrantees to assume the maximum allowable grant amounts without
            regard to design requirements and supportable cost estimates, the Authority’s



                                             29
            subgrantee program lacks essential controls to ensure project costs are reasonable
            and that allocated funding amounts are appropriate. An increase in the prescribed
            total development costs as requested by the Authority, without detailed project
            designs and accurate budget cost estimates, would only make this problem worse.

Comment 6   The Authority acknowledged it may not have implemented its housing program in
            the most efficient and effective manner and that it may not have implemented
            adequate controls over its subgrantees, yet states that stringent controls were
            implemented in 2006. The Authority stated they are willing to take steps to
            further strengthen controls and will seriously reevaluate continuation of its
            subgrantee program. The response also noted the Authority cooperated fully with
            HUD OIG’s audit.

            Although the Authority indicated it has considered implementing some of the
            controls recommended in the audit report, none of the recommendations cited in
            the report have yet been implemented as part of the Authority’s operations.
            Without implementation of the additional controls recommended in this report,
            the controls that the Authority has implemented will not be effective.

            We appreciate the Authority management and staff’s full cooperation, and the
            assistance they provided to our staff during the audit.




                                            30
Appendix C

SCHEDULE OF FUNDING PROVIDED TO FAILED PROJECTS
           CITED IN THE AUDIT REPORT



         Project Reference
              Number              Funding Amount

                1                  $ 12,050,000

                2                  $ 14,523,809

                3                  $   1,941,644

                4                  $   3,000,036

                5                  $   3,375,000

                6                  $   2,893,815

                7                  $    516,800

                8                  $   1,453,000

                9                  $    232,572

                10                 $   6,832,509

                11                 $   3,303,272

                12                 $    264,800

                13                 $   1,064,535

                14                 $   1,967,351

               Total               $ 53,419,143




                             31
